   Report No. D-2009-029    December 9, 2008




Internal Controls Over the Department of the Navy
   Cash and Other Monetary Assets Held in the
            Continental United States
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations

COMA                          Cash and Other Monetary Assets
CONUS                         Continental United States
DD                            Defense Department
DO                            Disbursing Officer
DoD FMR                       DoD Financial Management Regulation
DoD OIG                       DoD Office of Inspector General
DoN                           Department of the Navy
DSSN                          Disbursing Station Symbol Number
LDA                           Limited Depository Account
MCB                           Marine Corps Base
OIC                           Officer in Charge
SOA                           Statement of Accountability
SF                            Standard Form
U.S.C.                        United States Code
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704




                                                                                December 9,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE
               NAVY INSPECTOR GENERAL


SUBJECT: Internal Controls Over the Department of the Navy Cash and Other Monetary Assets
         Held in the Continental United States (Report No. D-2009-029)

We are providing this report for your infotmation and use. We considered the comment from the
Office of the Assistant Secretaty of the Navy (Financial Management and Comptroller), Financial
Management Office when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comment
from the Assistant Secretary of the Navy (Financial Management and Comptroller), Financial
Management Office was responsive. Therefore, no additional comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Edward A. Blair
at (216) 706-0074, extension 226 or Mr. Eric T. Thacker at (216) 706-0074, extension 234. The
team members are listed inside the back cover.




                                  f~                a/J1~
                                  Patricia A. Marsh, CPA
                                  Assistant Inspector General
                                  Defense Business Operations
                    Report No. D-2009-029 (Project No. D2008-D000FN-0127.000)
                                        December 9, 2008

               Results in Brief: Audit of Internal Controls
               Over the Department of the Navy Cash and
               Other Monetary Assets Held in the
               Continental United States

What We Did                                               What We Recommend
We evaluated internal controls over the                   Several issues identified were resolved as soon
Department of the Navy (DoN) Cash and Other               as they were brought to the clients’ attention.
Monetary Assets (COMA) held in the                        Our only recommendation was to improve
continental United States (CONUS) to                      physical security procedures at MCB Camp
determine whether they were effectively                   Pendleton. Specifically, we recommend that the
designed and operating to properly safeguard,             Provost Marshal’s Office ensure that it provides
record, account for, and report COMA.                     effective protection for the COMA entrusted to
                                                          the disbursing office by promptly responding to
What We Found                                             all alarms.
DoN did not consistently apply internal controls
over CONUS COMA. Specific issues included                 Client Comments and Our
the following areas.                                      Response
    • Physical security over COMA was not as              The Director, Office of Assistant Secretary of
        effective as it should have been.                 the Navy (Financial Management and
    • Appointment letters did not include                 Comptroller), Financial Management Office,
        required language regarding disbursing            concurred with our recommendation. We
        officials’ pecuniary liability and specific       considered the concurrence to be responsive to
        duties they are authorized to perform.            our recommendation.
    • DoN did not consistently reconcile
        reported balances. Marine Corps Base
        (MCB) Camp Lejeune and MCB Camp
        Pendleton disbursing offices did not use
        the required Standard Form 1149 to
        reconcile their limited depository
        accounts (LDAs), and MCB Camp
        Lejeune disbursing office did not
        balance Defense Department Form 2665
        to Defense Department Form 2657 at the
        end of each business day.
    • The MCB Camp Lejeune disbursing
        office did not maintain proper
        segregation of duties.

As a result, internal and physical controls were
not effective to ensure that COMA was properly
recorded, reported, accounted for, and
safeguarded.
                                                      i
             Report No. D-2009-029 (Project No. D2008-D000FN-0127.000)
                                 December 9, 2008

Recommendation Table
Client                         Recommendation Requires No Additional Comments
                               Comments                Required
Commander, Marine Corps Base                                      9
Camp Pendleton




                                        ii
Table of Contents

Results in Brief                                                  i

Introduction                                                      1

       Objective                                                  1
       Background                                                 1

Finding. Internal Controls Over Cash and Other Monetary Assets    3

       Client Actions                                             6
       Recommendation, Client Comments, and Our Response          7

Appendix

       A. Scope and Methodology                                   9
             Review of Internal Controls                         10
             Prior Coverage                                      11

Client Comments

       Assistant Secretary of the Navy (Financial Management
              and Comptroller)                                   13
Introduction
Objective
This is one of a series of reports addressing internal controls over Department of the
Navy (DoN) Cash and Other Monetary Assets (COMA). Our overall audit objective was
to determine whether internal controls for DoN COMA held in the continental United
States (CONUS) were effectively designed and operating to safeguard, record, account
for, and report COMA. See Appendix A for a discussion of the scope and methodology.

Background
In 2007, the DoD Office of Inspector General (DoD OIG) performed the audit, “Internal
Controls Over Navy General Fund Cash and Other Monetary Assets Held Outside of the
Continental United States.” This audit led the DoD OIG to conclude that a similar audit
of Navy’s CONUS COMA would be advantageous. This report discusses the adequacy
of internal controls over COMA held at CONUS disbursing offices.

DoD 7000.14-R, “DoD Financial Management Regulation,” (DoD FMR) provides
guidance for controlling, recording, and reporting COMA. DoD FMR, volume 6B,
chapter 4, defines “cash” as coins, paper currency, and readily negotiable instruments
(such as money orders, checks, and bank drafts on hand or in transit for deposit), and
amounts on demand deposit with banks or other financial institutions, including foreign
currencies. “Other monetary assets” include gold, special drawing rights, and U.S.
Reserves in the International Monetary Fund.

Each DoD disbursing office has a unique disbursing station symbol number (DSSN).
Disbursing officers (DOs) supervise all personnel holding cash and are accountable for
maintaining appropriate accounting and internal controls over the assets. This
responsibility includes ensuring the legality, propriety, and correctness of all
disbursements and collections of public funds. The functions of regularly receiving and
maintaining custody of public funds are generally performed by DOs and their appointed
agents, such as deputy DOs, disbursing agents, and cashiers.

DOs are accountable to the U.S. Treasury for the COMA in their possession. The
Statement of Accountability (SOA), Standard Form (SF) 1219, is the DO’s official
monthly record of COMA accountability. The DO’s daily accountability is maintained
on the daily SOA, Defense Department (DD) Form 2657. Disbursement and collection
transactions are reported on both the monthly and daily SOAs. COMA in the possession
of DOs should be reconciled daily, using the daily SOA as the permanent written record.
Documents representing cash for which the DO remains accountable, such as receipts for
advances to agents, should be kept in the DO’s safe or vault and accounted for daily on
the forms described above.

The DoD FMR states that the Daily Agent Accountability Summary, DD Form 2665, is
the daily accountability document for agents. Preparation of the DD Form 2665 includes


                                            1
a physical count of all cash and negotiable instruments in the possession of agents.
Agents should use the Statement of Agent Officer’s Account, DD Form 1081, as a
summary of cash transactions and receipts for cash or to close agent accounts. Collection
and disbursement vouchers and any remaining cash must be turned in to the DO, along
with the DD Form 1081, which is prepared to account for cash and vouchers returned to
the DO. The DO or deputy DO should balance all agents’ COMA using the Daily Agent
Accountability Summary.

On September 30, 2007, DoN reported approximately $143 million in COMA. Of this
amount, approximately $66 million was located at CONUS disbursing offices. We
performed our review at four locations: Marine Corps Base (MCB) Camp Lejeune, MCB
Camp Pendleton, Navy Pay and Personnel Support Center, and Navy Special Warfare
Development. These disbursing offices reported the majority of the FY 2007 CONUS
COMA (73 percent of $66 million).




                                            2
Finding. Internal Controls Over Cash and Other
Monetary Assets
The DoN did not consistently apply internal controls over CONUS COMA. Specifically,
management needs to improve internal controls in the following areas:

           •   physical security over COMA,
           •   proper appointment of disbursing officials,
           •   reconciliation of reported balances, and
           •   segregation of duties.

DoN disbursing officials did not effectively implement established policy and guidance, and
inconsistently applied internal controls. As a result, internal and physical controls were not
effective to ensure that COMA was properly recorded, reported, accounted for, and safeguarded.

Criteria for Internal Controls Over COMA
Disbursing officials receive their appointments under 31 United States Code (U.S.C.) 3321 and
are held accountable for their payments under 31 U.S.C. 3325. Under 10 U.S.C. 2773a, the
Secretary of Defense may designate any civilian employee of the Department of Defense or
member of the Armed Forces under the Secretary's jurisdiction as an employee or member who,
in addition to any other potential accountability, may be held accountable through personal
monetary liability for an illegal, improper, or incorrect payment. Any such designation must be
in writing.

Volume 5 of the DoD FMR provides for the use, procedures, and security for COMA throughout
the DoD. Chapter 1, “Purpose, Organization, and Duties,” discusses disbursing operations and
specifically directs that duties such as authorizing, approving, and recording transactions be
assigned to separate responsible individuals. Chapter 2, “Disbursing Offices, Officers, and
Agents,” provides detailed procedures for appointment of DOs and deputy DOs, as well as
guidance for the establishment of a disbursing office, the appointment of disbursing officials, and
general disbursing operation guidance. Chapter 3, “Keeping and Safeguarding Public Funds,”
establishes operating criteria for daily disbursing cash operations, including: cash review
requirements; safeguarding funds and related documents; and advancing funds to disbursing
agents. Chapter 14, “Limited Depository Checking Accounts,” discusses opening and
reconciling an LDA. Chapter 19, “Disbursing Officer Accountability Reports,” discusses the
proper balancing and preparation of the statement of accountability.


Physical Security Over Cash and Other Monetary Assets
The commanders and security offices at three DoN CONUS disbursing offices failed to meet
some DoD FMR requirements for security of COMA. DoD FMR volume 5, chapter 3, section
030302, lists several responsibilities required of the commander and DO to ensure the safety of
accountable assets. However, the commanders and security offices at these three locations did


                                                3
not fulfill the responsibility of maintaining a strict security environment for their disbursing
offices.

The three incidents of compromised COMA physical security included the following.

           •   Military police officers from the MCB Camp Pendleton Provost Marshal’s Office
               failed to respond to a surprise alarm test performed by the auditors at the
               disbursing office. Representatives from the Provost Marshal’s Office Dispatch
               Center determined that the military police responded to another alarm at a
               different location during the surprise test. The auditors determined that, at a
               minimum, the Provost Marshal’s Office should have called the disbursing office
               to inquire about the alarm; however, this was not done.

           •   During a surprise alarm test performed at MCB Camp Lejeune’s disbursing
               office, the Provost Marshal’s Office dispatched military police to the billing
               address on file instead of to the actual disbursing office address. This occurred
               because the Provost Marshal’s Office erroneously listed the billing address as the
               location of the disbursing office. Therefore, the military police went to the billing
               address instead of responding to the alarm at the disbursing office.

           •   The security office at the Navy Special Warfare Development Group failed to
               respond to a surprise alarm test at the disbursing office. This occurred because
               the security office experienced a power interruption that affected its alarm
               monitoring system.

In all three surprise security tests, security personnel failed to respond or responded to the wrong
address. Although the disbursing officials had implemented steps to secure COMA, the response
from security forces was not effective. As a result, there was potential for security to be
breached, risking a loss of funds for which disbursing officials at MCB Camp Lejeune, MCB
Camp Pendleton, and Navy Special Warfare Development Group would be pecuniary liable.

Preparation of Appointment Letters
Appointment letters for disbursing personnel did not contain certain information required by the
DoD FMR. A deficient appointment letter could allow an individual to avoid pecuniary liability
under 10 U.S.C. 2773a. Two of the locations examined during this audit, MCB Disbursing
Office Camp Lejeune and MCB Disbursing Office Camp Pendleton, had appointment letters that
did not comply with DoD FMR requirements.

Specifically, the DO appointment letters at both locations did not identify the specific duties that
the DOs were authorized to perform and did not confirm that the DO had been provided written
operating procedures. Additionally, the appointment letter for the MCB Camp Lejeune DO did
not include a statement acknowledging individual pecuniary liability or confirming the
counseling of appointees with regard to pecuniary liability. The appointment letters for the MCB
Camp Pendleton deputy DOs did not affirm that the deputies had been given written operating
procedures. According to 10 U.S.C. 2773a, the designation of officials must be in writing.
Therefore, supervisors of individuals who have appointment letters that do not meet the


                                                  4
requirements of DoD FMR volume 5, chapter 2 should have those appointment letters revised
and reissued or relieve those individuals from performing disbursing duties.

DoD FMR volume 5, chapter 2, “Disbursing Offices, Officers, and Agents,” requires that the
authorities who approve the establishment of DO, deputy DO, and cashier positions issue the
required appointment letters to these individuals. The DoD FMR further requires that
appointment letters include the statement, “I acknowledge that I am strictly liable to the United
States for all public funds under my control,” in addition to a statement confirming the
counseling of appointees with regard to pecuniary liability and that they have been given written
operating procedures. Appointees must acknowledge acceptance of the appointment by signing
the original and all copies of the letter of appointment. According to 10 U.S.C. 2773a, a
designated accountable official may be held accountable through personal monetary liability for
an illegal, improper, or incorrect payment.

Reconciliation of Reported Balances
The disbursing offices at MCB Camp Lejeune and MCB Camp Pendleton did not perform the
necessary reconciliations to ensure that reported fund balances were accurate. Specifically, these
disbursing offices did not reconcile the limited depository account (LDA) using the Statement of
Designated Depository Account on a Standard Form (SF) 1149. In addition, the disbursing
office of MCB Camp Lejeune did not properly balance all documents representing COMA to the
DD Form 2657. As a result, the DD Form 2657 was out of balance by $50,000 as recently as
March 24, 2008.

Disbursing officials at MCB Camp Lejeune and MCB Camp Pendleton did not perform
reconciliations of their LDAs using the Statement of Designated Depository Account (SF 1149).
The DoD FMR, volume 5, chapter 14 states that within 30 days of the close of each calendar
month, a Statement of Depository Account (SF 1149) is to be prepared and submitted for each
open LDA. Although alternative procedures were performed to reconcile the LDAs, these
procedures did not include preparing the SF 1149. Because the deputy DO did not follow the
DoD FMR guidance, the LDA at Camp Lejeune included an unsupported amount of $62.40.
While this dollar amount was not material, the potential exists that improper or fraudulent
transactions could go undetected if the LDA is not reconciled in accordance with the DoD FMR.

According to the DoD FMR, volume 5, chapter 19, the DO is required to balance the DD Form
2665 to the DD Form 2657, both representing COMA, at the end of each business day.
However, disbursing officials at MCB Camp Lejeune did not properly balance all DD Form
2665s to the DD Form 2657. The lack of reconciliation caused a $50,000 out-of-balance amount
on the DD Form 2657 to go undetected by the disbursing office. The purpose of this
reconciliation at the end of the business day is to ensure the accuracy of reported amounts.
Without this reconciliation, disbursing officials cannot reasonably attest that the accountability
balance reported is accurate.

Segregation of Duties
The disbursing office at MCB Camp Lejeune did not implement segregation of duties, as
required by the DoD FMR. Specifically, the fiscal section did not assign responsibility for



                                                5
authorizing, approving, and recording transactions to different individuals. As a result, the same
person prepared and approved transactions without supervisory review.

The disbursing office at MCB Camp Lejeune disburses funds to support Marine Corps missions.
The fiscal section of the disbursing office employed several deputy DOs and agents to handle
these duties. At the end of each business day, the fiscal Officer in Charge (OIC) is responsible
for performing certain closing procedures, including reviewing and approving transactions. The
DoD FMR volume 5, chapter 19, specifically states that the close-of-business procedures must
be accomplished using the DD Form 2657. The fiscal OIC was the only person in the fiscal
section who had access to the DD Form 2657 in the accounting system. Thus, he was the only
person authorized to close the business day in the accounting system. However, for the entire
month of March 2008 and part of April 2008, the fiscal OIC logged into the accounting system
on his computer using his password and asked his deputy DO to complete the required closing
procedures in the accounting system. Furthermore, the fiscal OIC was not necessarily present
while the deputy DO was working on his computer approving transactions that only the fiscal
OIC was authorized to approve.

As a result of being assigned both an approving official and a preparer’s responsibilities, the
deputy DO inappropriately prepared and approved her own transactions. The fiscal section’s
procedures contradicted the principle of segregation of duties. The lack of segregation of duties
increased disbursing office vulnerability to fraud, misstatement of COMA, and possible losses of
funds.

Client Actions
After they were made aware of the issues, each command took actions to strengthen internal
controls in its disbursing operations. The following actions were taken to correct the issues
identified during the audit.

MCB Camp Lejeune
   •   On April 18, 2008, the DO’s appointment letter was revised to reflect the duties that he
       was authorized to perform, his acknowledgement of pecuniary liability, and that he had
       been provided written operating procedures.

   •   On April 24, 2008, the DO informed us that his office had implemented a
       segregation-of-duties policy by assigning approving responsibilities and transaction-
       preparation duties to separate individuals.

   •   On June 16, 2008, the DO informed us that the Provost Marshal’s Office and the
       commercial alarm contractor at Camp Lejeune had updated their systems with the correct
       disbursing office address.

   •   On June 16, 2008, the DO informed us that procedures had been updated to ensure that
       the LDA would be reconciled using the forms required.




                                                6
   •   On June 16, 2008, the DO informed us that the $50,000 out-of-balance amount had been
       corrected. Disbursing officials also informed us that they had updated procedures for
       tracking and accounting for all documents representing COMA on the DD Form 2657.

MCB Camp Pendleton
   •   On June 25, 2008, the deputy DO updated the DO appointment letter template to reflect
       duties that the DO was authorized to perform and to affirm that the DO had been
       provided written operating procedures. Additionally, the DO included a statement in the
       deputy DO appointment letter template affirming that deputy DOs had been provided
       written operating procedures.

   •   On June 25, 2008, the deputy DO informed us that although the disbursing office no
       longer had an LDA, procedures had been changed to reconcile any future LDAs using the
       SF 1149.

Navy Special Warfare Development Group
On April 22, 2008, the security office at Navy Special Warfare Development fixed the electrical
problem that had caused power interruption to the alarms. The auditors retested the alarm after
power was restored. The security forces responded to the second alarm test.

Navy Pay and Personnel Support Center
Navy Pay and Personnel Support Center’s internal controls over COMA were adequate to ensure
that COMA was properly recorded, reported, accounted for, and safeguarded. Client actions
were not required.

Recommendation, Client Comments, and Our Response
We recommend that the Commander, Marine Corps Base Camp Pendleton, improve physical
security procedures at the Provost Marshal’s Office to provide effective protection for the Cash
and Other Monetary Assets entrusted to the disbursing office by responding to all alarms
promptly.

Client Comments. The Director, Office of Assistant Secretary of the Navy (Financial
Management and Comptroller), Financial Management Office, concurred with the United States
Marine Corps response that the Electronic Security System, including individual sensors, will be
tested quarterly to ensure that systems are functional. The estimated completion date is
October 6, 2009.

Audit Response. Comments from the Director, Office of Assistant Secretary of the Navy
(Financial Management and Comptroller), Financial Management Office, are responsive to the
recommendation and no additional comments are required.




                                                7
8
Appendix A. Scope and Methodology
We conducted this performance audit from February 2008 through September 2008 in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We obtained evidence by performing the following tasks.

       •   We reviewed DoD, U.S. Treasury, and Department of the Navy (DoN) guidance
           related to the internal controls over Cash and Other Monetary Assets (COMA) held
           within the continental United States (CONUS).

       •   We conducted key word searches of DoN and other agencies’ Web sites to obtain
           information regarding prior and ongoing audits or investigations relating to our audit,
           including:

                 Assistant Secretary of the Navy, Financial Management and Comptroller,
                 Defense Criminal Investigative Service,
                 Naval Criminal Investigative Service,
                 Naval Audit Service, and
                 Defense Finance and Accounting Service.

       •   We acquired necessary documentation and records from Defense Finance and
           Accounting Service, Marine Corps Base (MCB) Camp Lejeune, MCB Camp
           Pendleton, Navy Pay and Personnel Support Center, and Navy Special Warfare
           Development, including service-level points of contact. The points of contact
           completed internal control questionnaires and provided us with accountability reports.

       •   We obtained a universe of 49 total disbursing station symbol numbers (DSSN)
           throughout DoN as of September 30, 2007. Of the universe, 10 DSSNs represented
           CONUS disbursing offices with disbursing officer (DO) accountability.

       •   The 10 CONUS disbursing offices represent approximately $66 million in COMA on
           the DoN FY 2007 financial statements. We judgmentally selected 4 of the 10
           CONUS disbursing offices based on the materiality of the cash held by the offices.
           The four CONUS disbursing offices held a total of approximately $48 million, or 73
           percent, of the $66 million reported in COMA. Table 1 shows the four disbursing
           offices and their reported DO accountability balance for the end of FY 2007.




                                                9
                      Table 1. DoN Disbursing Offices Tested
             DSSN               Site              Location                  Amount
            6092      MCB Camp Lejeune        North Carolina           $36,261,974.14
            6187      MCB Camp Pendleton      California               $ 1,390,162.61
            8371      Navy Pay and Personnel Virginia                  $ 8,808,276.15
                      Support Center
            8552      Navy Special Warfare    Virginia                 $ 1,287,901.13
                      Development
                      TOTAL                                            $47,748,314.03


       •   We evaluated internal controls over COMA, as required by the DoD FMR, at each
           DSSN. To determine whether controls were effective and adequate, we assessed
           management’s operating procedures and implementation of the DoD FMR
           concerning:
               Disbursing officers, deputy disbursing officers, and agents,
               cash verifications,
               COMA security,
               payments and collections,
               statements of accountability,
               foreign currencies,
               limited depository accounts, and
               cashiers and cash counts.


Review of Internal Controls
We determined that material internal control weaknesses in COMA existed as defined by DoD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006.
A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
fraud, waste, abuse, or mismanagement on a timely basis. The finding section discusses the
details of the internal controls weaknesses identified during the audit. Implementing the
recommendation will improve the internal controls structure at MCB Camp Pendleton disbursing
office. A copy of the final report will be provided to the senior official responsible for internal
controls in the Office of the Assistant Secretary of the Navy, Financial Management and
Comptroller.


Use of Computer-Processed Data
To perform this audit, we used computer-processed data extracted directly from the Defense
Cash Accountability System, which is used by DoD for cash accountability and reporting of
General Funds, Defense Working Capital Funds, and Security Assistance Funds. We relied on
Defense Cash Accountability System output that included the DoN Disbursing Officers’



                                                10
Standard Form 1219 (Monthly Statement of Accountability) and Department of Defense
Form 2657 (Daily Statement of Accountability)

We compared data from the Defense Cash Accountability System to DoN disbursing source
documents in order to determine whether balances reported in the Defense Cash Accountability
System were reliable. Specifically, we compared DD Form 2657s and SF 1219s extracted from
the system to SF 1081s, payment vouchers, actual disbursements, and cash receipts. We
determined that there were no significant differences between the system data and the supporting
documents that would preclude use of the Defense Cash Accountability System-processed data
to meet the audit objective or that would change the conclusions in this report.


Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and the Naval
Audit Service have issued seven reports discussing Cash and Other Monetary Assets.
Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports. Unrestricted
Naval Audit Service reports can be accessed at www.hq.navy.mil/NavalAudit.

DoD IG

DoD IG Report No. D-2008-123, “Internal Controls Over Navy General Fund Cash and Other
Monetary Assets Held Outside of the Continental United States,” August 26, 2008

DoD IG Report No. D-2008-121, “Internal Controls for Air Force General Fund Cash and Other
Monetary Assets,” August 18, 2008

DoD IG Report No. D-2007-028, “Controls Over Army Cash and Other Monetary Assets,”
November 24, 2006

DoD IG Report No. D-2006-011, “Report on the Foreign Military Sales Trust Fund Cash
Management,” November 7, 2005

Naval Audit Service

Naval Audit Service Report No. N2007-0050, “Navy Disbursing Officers’
Accountability,” August 29, 2007

Naval Audit Service Report No. N2007-0046, “Internal Controls Over Disbursing Office
Operations in Bahrain,” July 23, 2007

Naval Audit Service Report No. N2006-0047, “Cash Accountability of Department of the Navy
Disbursing Officers for Hurricane Katrina Relief Fund,” September 22, 2006




                                               11
12
Assistant Secretary of the Navy (Financial Management
and Comptroller) Comments




                   Click to add JPEG file




                                  13
Click to add JPEG file




               14
Click to add JPEG file




               15
16
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Business Operations prepared this report. Department of Defense Office of
Inspector General personnel who contributed to the report are listed below.

Patricia A. Marsh
Edward A. Blair
Eric T. Thacker
Joseph A. Shook
Peter Su
Nancy J. Kovalchick
Joanna B. Sokolowski
Cheryl L. Dagy
Ellen Kleiman-Redden
